/

APPENDIX

Jeff Howell
Petitioner, pro se

vs.

State of Indiana
Defendant

Appendix A

Indiana Supreme Court denial
of Howell’s petition to transfer

Jeff Howell v. State of Indiana
19A-CR-02913 and. 2020)
Not reported

2*
Sn tfie

Snbtana Supreme Court
Jeff Howell,
Appellants),

Court of Appeals Case No.
19A-CR-02913
Trial Court Case No.
49G03-0807-PC-158636

v.
State Of Indiana,
Appellee(s).

FILED
Sep 03 2020, 3:49 pm

CLERK

Indiana Supreme Court
Court ol Appeals a
and Tax Court

l

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 9/3/2020

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

pEMMEEf
SEP 1 0 2020

0-

U LMV
.J

*

3.0

Appendix B

Indiana Court of Appeals dismissal
of Howell’s appeal

Jeff Howell v. State of Indiana
19-CR-02913 and. Ct. App. 2020)
Not reported

IN THE

COURT OF APPEALS OF INDIANA
Jeff Howell

i

|

Appellant,

I

v.

State of Indiana,
Appellee.

Court of Appeals Cause No.
19A-CR-2913
FILED
[_May.J-4.2020, 3:44 pm

CLERK

Indiana Supreme Court
. Court of Appeals ,
W and Tax Court ^

Order
[1]

Appellee, by counsel, has filed a Motion to Dismiss. Appellant, pro se,
has filed an Objection to Motion to Dismiss.

[2]

Having reviewed the matter, the Court finds and orders as follows:
1. Appellee’s Motion to Dismiss is granted, and this appeal is
dismissed with prejudice.
2. The Clerk of this Court is directed to send this order to the parties,
the trial court, and the Marion Circuit and Superior Courts Clerk.
3. The Marion Circuit and Superior Courts Clerk is directed to file a
copy of this order under Cause Number 49G03-0807-PC-158636,
and, pursuant to Indiana Trial Rule 77(D), the Clerk shall place the
contents of this order in the Record of Judgments and Orders.

[33

Ordered

5/14/2020

Robb, J., Sharpnack, Bames, Sr.JJ., concur.
For the Court,

UlW
Chief Judge

Page 1 of 1

Appendix C

State of Indiana v. Jeff Howell
49G03-0807-PC-158636
(Marion Superior Court 2008)
Motion for Release of Juror Information
(Denied)

l

DENIED
November 14, 2019

/£/}
STATE OF INDIANA

)
)

COUNTY OF MARION

)

JEFF HOWELL
VS.
STATE OF INDIANA

)
)
)
)
)
)
)

IN THE MARION SUPERIOR COURT
CRIMINAL DIVISION 3
49G03-0807-PC-158636

(4M) NOV 14 ZfilS

cl

CLHRKOFTHEtMRMWCnCUircrv^
MOTION FOR RELEASE OF JUROR INFORMATION
Comes now the Petitioner, Jeff Howell, and files this Motion for Release ofjuror
information, to include names and addresses of all jurors, in the above captioned cause.
Petitioner offers the following in support of this motion.
1. Petitioner was Defendant in this cause.
2. Petitioner plead not guilty to all charge,
3. Petitioner was found guilty by jury trial
4. Petitioner maintains his actual innocence of all charges under this cause.
5. Petitioner intends to remedy his wrongful conviction through litigation and other
appropriate and legal means and the information sought in this motion is necessary to that end.
6. Petitioner’s case was not "high profile” and the trial was not closed.
7. Petitioner submitted an informal written request for juror information to the Marion
County Clerk by letter dated October 9,2019. That letter wasmarked "filed” on October 17,
2019. Petitioner made his request informally due to the fact that, according to various rules and
statutes, parties to an action are entitled to such informal

7A
8. On October 30,2019, Petitioner received a copy of his letter with a typed notation at the
top “The request for juror information is DENIED. The requested juror information is
confidential according to Indiana law.” This statement appears to be “signed” by Commissioner
Stanley E. Kroh.
9. The statement referenced in paragraph 8 fails to cite what “Indiana law” purportedly
makes juror information confidential.
10. Indiana Code 33-28-5-22 states that “After the period of service for which mwiw were
drawn from the master jury list has expired, and all persons selected to serve as jurors have been
discharged, all records and papers compiled and maintained by foe jury administrator or foe clerk
must be preserved by foe clerk of the courts for foe period prescribed by rule of foe supreme
court The records and papers must be availableforpublic inspection at all reasonable times and
in accordance with this chapter and applicable supreme court rules.” Empfamic added.
! L “AU persons have access to Court Records as provided in this rule, except as provided in
section (B)(2) of this rule.” Rule 9 - Access to Court Records, Irid. Admin r. 9.
12. “The following persons, in accordance with their functions within foe judicial system,
may have greater access to Court Records: [...] (d) the parties to a case or their lawyers with
respect to their own case.” Id. Emphasis added.
13. "Personal information relating to a juror or prospective juror not disclosed in open court
is confidential, other thanfor the use ofthe parties and counsel. The court shall maintain that
confidentiality to an extent consistent with the constitutional and statutory rights ofthe parties”
Rule 10 - Access to Court Records, Ihd. Admin. R. 10. Emphasis added.
14. A number of courts have held that foe First Amendment provides for a public right to
access jury trials and that this right includes information obtained during foe juror selection

2

process. The Washington Post sought juror questionnaires in the murder trial of Ingmar
Guandique, accused of murdering Chandra Levy in 2001. The murder received extensive media
• coverage because Levy was having an affair with a Congressman. The jury was promised that
their answers to die questionnaire would be confidential, but ultimately, the court of appeals held
that the questionnaires had to be disclosed to the public except for any questions that the tried
judge believed to involve “deeply personal matters.*’ In Re Access to Juror Questionnaires; The
Washington Post> (D.C. Court of Appeals, 2012)
15. A court may dray access to all identifying information about jurors when there is a
serious threat to the jurors' welfare. In the 1977 trial of Leroy Barnes, who was charged with
violating multiple federal narcotics and firearms laws, a federal district court withheld jurors'
names and addresses after the judge determined that the case presented an

risk to the

jurors. See U.S. v. Barnes, 604 F.2d 121 (1979). However, Petitioner was not charged with any
violent crimes and is not a threat to jurors or any other person.
16. The U.S. Supreme Court has recognized that the First Amendment protects the public's
right to attend criminal proceedings. Globe Newspaper Co. y. Superior Courts 457 U.S. 596
(1982); Richmond Newspapers, bic. v. Virginia, 448 U.S. 55 (1980). The Court has further
recognized that the public and the press have a right to attend not only the trial itself, but also
those pretrial proceedings that have been traditionally open to the public and whose function
would be enhanced by allowing public scrutiny. Press-Enterprise Co. v. Superior Court, 478
U.S. 1 (1986) [hereinafter Press-Enterprise II\ (holding that a First Amendment right of access
applies to preliminary hearings); Press-Enterprise Co. v. Superior Court, 464 U.S. 501 (1984)
[hereinafter Press-Enterprise J] (holding that a First Amendment right of access applies to voir
dire proceedings). Although the Supreme Court has not yet directly addressed whether this

3

f/t
constitutional right of access to judicial proceedings applies to civil proceedings or to court
documents, numerous federal and state courts have extended the First Amendment right of
access to civil proceedings and to court records filed in both criminal and civil cases.
17. The following cases recognize a First Amendment right of access to civil proceedings:
United States v. AD., 28 F.3d 1353 (3d Cir. 1994); Westmoreland v. CBS, Inc., 752 F.2d 16 (2d
Cir. 1984); Publicker Industries, Inc. v. Cohen, 733 F.2d 1059 (3d Cir. 1984); In re Continental
Illinois Sec. Litig., 732 F.2d 1310 (7th Cir. 1984); Brawn & Williamson Tobacco Corp. v. FTC,
710F.2d 1165 (6th Cir. 1983).
18. The following cases recognize a First Amendment right of access to judicial records:
Republic ofthe Philippines v. Westinghouse Elec. Corp., 949 F.2d 653 (3d Cir. 1991); Public
Citizen v. Liggett Group Inc., 858 F.2d 775 (1st Cir. 1988); Rushfordv. New Yorker Magazine,
846 F.2d 249 (4th Cir. 1988); In re New York Times Co., 828 F.2d 110 (2d Cir. 1987);
Associated Press V. U.S. District Court, 705 F.2d 1143 (9th Cir. 1983); United States v.
Dorfinan, 690 F.2d 1230 (7th Cir. 1982).
19. A First Amendment right of access to information easts ifthe information in question
passes the twin tests of "experience and logic." First, is there a long history of access to the
information at issue? Second, does public dissemination of the information play a significant role
in the functioning and enhancement ofthe judicial process at issue? Information about the
individuals who literally decide the fate of both civil litigants and criminal defendants, inr-inHing
information about where the jurors reside, work, or both, satisfies both tests. Press-Enterprise
Co. v. Superior Court ofCalifornia, 464 U.S. 501 (1984), and Press-Enterprise Co. v. Superior
Court ofCalifornia, 478 U.S. 1 (1986).

4

• i

/<=?/*

20. The loots ofopen trials reach bade to the days before the Norman Conquest when cases
in England were brought before "moots," a town meeting kind of body such as the local courts of
toe hundred oftoe county court Attendance was virtually compulsory on toe part of toe freeman
of toe community, who represented toe "patria," or toe "country," in rendering judgment The
public aspect thus was "almost a necessary incident" ofjury trials, since toe presence of a jury • •
. already ensured toe presence of a large part oftoe public. Press-Enterprise I, 464 U.S. at 505.
21. When toe jury system grew up with juries of toe vicinage • • • everybody knew everybody
on toe jury and we may take judicial notice that this is yet so in many rural communities
throughout toe country. So, everyone can see and know everyone who is stricken from toe venire
list or otherwise does not serve. Even in toe case before us, toe entire voir dire proceeding was in
open court. But toe anonymity of life in the cities has so changed the complexion oftors country
that even toe press, with its vast and imaginative methods of obtaining information, apparently
does not know and cannot easily obtain toe names of toe jurors and oftoe venire men and
women who did not serve in this case. We think it no more than an application of what has
always been toe law to require a district court, upon toe seating of toe jury and alternate?, if any,
to release the names and addresses of those jurors----In re Baltimore Sim Co., 841 F.2d 74,75
(4to Cir. 1988).
22. So common was toe practice of disclosing toe identity ofjurors that in toe conspiracy
trial of Aaron Burr, over which Chief Justice Marshall presided, the names of the twelve chosen

jurors were printed in toe reported decision. See Gannett Co. v. State, 571 A.2d 735,757 (Del.
1990) (Walsh, J., dissenting) (citing United States v. Burr, 25 F. Cas. 55,87, No. 14,693
(C.CD.Va. 1807)); see also David Weinstein, Protecting a Juror's Right to Privacy:
Constitutional Constraints and Policy Options, 70 Temp. L. Rev. 1,30 (1997). The jurors’

5

//A
names were also made public in the highly publicized trials of William Penn in 1670 and of John
Peter Zenger in 1735. Gannett Co. v. State, 571 A.2d 735,756 n.3 (Del. 1990) (Walsh, J.,
dissenting). Thus, there is a long-established tradition of allowing access to jurors’ identities in
criminal trials in the United States.
23. In recognizing the public's constitutional right to attend criminal proceedings, the
Supreme Court identified the following purposes served by an open judicial system; ensuring
that proceedings are conducted fairly; discouraging perjury, misconduct of participants, and
biased decisions; providing an outlet for community hostility and emotion; ensuring public
confidence in a trial's results through foe appearance of fairness; and inspiring confidence in
judicial proceedings through education regarding foe methods of government and judicial
remedies. RichmondNewspapers, 448 U.S. at 569.
24. Many of foe purposes listed above which open justice serves are equally served by access
to foe identities of the jurors. Knowledge ofjuror identities allows the public to verify the
impartiality of key participants In foe administration ofjustice, and thereby ensures fairness, foe
appearance of fairness, and public confidence in that system. In re Globe Newspaper Co., 920
F.2d at 94.
25. It is possible, for example, that suspicions might arise in a particular trial (or in a series of
trials) that jurors were selected from only a narrow social group, or from persons with certain
political affiliations, or from persons associated with organized crime groups. It would be more
difficult to inquire into such matters, and those suspicions would seem in any event more real to
the public, if names and addresses were kept secret Furthermore, information about jurors,
obtained from foe jurors themselves or otherwise, serves to educate the public regarding foe
judicial system and can be important to public debate about its strengths, flaws, and means to

6

. s

flA
improve it. -. Juror bias or confusion might be uncovered, and jurors, understanding and
response to judicial proceedings could be investigated. Public knowledge ofjuror identities could
also deter intentional misrepresentation at voir dire. Id
26. It is important for the public to receive information about the operation of the
administration ofjustice, including information about the actual people who do renderjustice in
the truest sense of the word. Access to such information not only serves the mw ofjustice
generally by providing an independent, non-governmental verification of the utter impartiality of
die processes involved in selecting jurors and shielding them from improper influences, it also
serves to enhance the operation of the jury system itself by educating the public as to their own
duties and obligations should they be called for jury service. United States v. Doherty, 675 F.
Supp. 719,723 (D. Mass. 1987), aff.d in part, revxl in part on other grounds, 867 F.2d 47 (1st
Cir. 1989).
27. Several examples from the recent past confirm these views of the essential role that
access to information about jurors plays in promoting the public’s confidence in the fairness of
the judicial process. Access to juror information helped reveal that an African-Americanjuror in
Washington, D.C., refused to convict an African-American criminal defendant, regardless of the
Evidence Similarly, it was revealed that a law student juror in a civil libel case had erroneously
instructed his fellowjurors on the meaning of the "actual malice" standard. See Steven Brill,
Inside the Jury Room at The Washington Post Libel Trial, Am. Law.. Nov. 1982, at 1.

Furthermore, information obtained as a result ofpublic access to juror identities has even
uncovered juror misconduct. United States v. Posner, 644 F. Supp. 855,886 n.2 (S.D. Fla. 1986)
(jurors, exposure to prejudicial outside influences revealed in newspaper article featuring
interview with juror), aff.d without opinion, 828 F.2d 773 (11th Cir. 1987). Most recently, news

7

reports revealed that jurors in a civil case switched their votes late Friday afternoon from
plaintiff to defendant solely to avoid having to resume deliberations after the weekend. Jeff
Blumentahl, Did Civic Duty Go Awry?, Legal Intelligencer. Sept. 15,1999. Not only the names
of the jurors, but also the places they live and work may reveal useful background information
about the citizens who rendered the verdict in a particular case.
28. Courts typically stress the nation's long tradition of making the names and addresses of
jurors open to the public. In United States v. Week, the news media challenged a trial court’s
decision to empanel an anonymous jury in the criminal case against Wecht, a coroner charged
wife using his public office for private financial gain, fee United States Court of Appeals for fee
Third Circuit noted feat it was rare forjuror names to be withheld before fee upsurge in the use
of anonymous juries in fee 1970s. US. v. Week, 537 F.3d 222 (3d Cir. 2008).
29. The Supreme Court of Ohio in Beacon Journal also interpreted fee Court’s holding in
Press-Enterprise /as requiring fee First Amendment right of access to

to j uror names.

According to feat court, juror identity is a component of voir dire, which the Court in PressEnterprise /held a qualified First Amendment right of access attaches to. Beacon Journal, 98
Ohio St 3d at 157.
30. As shown in the preceding paragraphs, feme is a firmly established tradition of providing
public access to juror identities, including their addresses, and access to feat information
enhances the functioning of our judicial system. Therefore, under the Press-Enterprise test of
"experience and logic," fee names and addresses ofjurors are subject to the qualified right of
access guaranteed by the First Amendment. In holding feat fee entirejury selection process in
criminal trials is subject to fee First Amendment right of access by fee public, fee Supreme Court
has strongly suggested feat any limitation on information ordinarily disclosed at such

8

wi

/</A
proceedings must satisfy tiie "strict scrutiny" test. Accordingly, before denying the public access
to information about jurors injudicial proceedings, courts must conduct a case-by-case analysis
and determine that withholding the information is necessary to further a compelling government
interest, is narrowly tailored to serve that interest, and that no less restrictive means are available
to adequately protect that interest
31. The information requested is in the public interest, convenience, and necessity in the
Petitioner’s efforts to further litigate his wrongful conviction.
WHEREFORE, Petitioner requests the Court to grant this motion and provide him wife a
list ofjurors as requested.
Respectfully submitted,

Je:
, Petitioner, pro se
P.O.Box 6093
Bloomington IN 47407

CERTIFICATE OF SERVTrr.
I hereby certify that a true copy of fee foregoing was served on the Marion County
Prosecutor on the 2nd day of November, 2019, by U.S. Mail, postage prepaid.

L

JeffJfijwell, Petitioner, pro se

P.oT Box 6093
Bloomington IN 47404

9

/sx
Appendix D

Howell’s October 9, 2019, letter to the Marion
County Clerk requesting information on the jurors
who presided at his trial
(Denied)

ft A
The request for juror information is DENIED. The requested juror information is confidential
according to Indiana law. Letter forwarded to Court Reporter to provide estimate for transcript.

October 24,2019

Jeff Howell
P.O.Box 6093
Bloomington IN 47407

m

OCU7 20 IS

October 9,2019

. Marion County Clerk
200 E; Washington Street
Indianapolis IN 46204
RE: 49G03-0807-PC-158636

To Whom it May Concern:
Please forward a copy of the list of all jurors, including names and mailing
addresses, who served in the above captioned trial.
Please also advise what the cost would be to obtain the transcript of the voir
dire proceedings.
Respei

JeffHowell

cc: file

Vi

